     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




Greater Coordination Needed in Meeting Congressional
   Directives to Address and Report on the Needs of
                Afghan Women and Girls




                                       July 30, 2010




SIGAR Audit-10-13 Development/Women and Girls
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


July 30, 2010


The Honorable Hillary R. Clinton
U.S. Secretary of State

The Honorable Robert Gates
U.S. Secretary of Defense

The Honorable Karl Eikenberry
U.S. Ambassador to Afghanistan

Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Mr. Earl Gast
Mission Director to Afghanistan
U.S. Agency for International Development

This report discusses the results of SIGAR’s review of appropriated funds earmarked for Afghan women
and girls’ activities. This report includes recommendations to ensure the needs of Afghan women and
girls are addressed as intended in the congressional directives.

A summary of this report is on page ii. This performance audit was conducted by the Office of the
Special Inspector General for Afghanistan Reconstruction under the authority of Public Law No. 110-181
and the Inspector General Act of 1978, as amended. When preparing the final report, we considered
comments from the U.S. Embassy Kabul, Department of State, and U.S. Agency for International
Development. In their comments, State and USAID concurred with the four recommendations in this
report. A copy of the comments is included in appendix VI.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General
   for Afghanistan Reconstruction




SIGAR Audit-10-13 Development/Women and Girls                                                    Page i
                                                                   SIGAR Audit-10-13                                   July 2010


                   SIGAR
                                                Special inspector General for Afghanistan Reconstruction

                                                                   Greater Coordination Needed in Meeting Congressional
               .                                                   Directives to Address and Report on the Needs of Afghan
   Special Inspector General for Afghanistan Reconstruction        Women and Girls

 What SIGAR Reviewed
 From 2003 to 2010, Congress earmarked $627 million in appropriated funds to address the needs of Afghan women and
 girls. Congress also directed the Department of State to report on the use of these funds. This report assesses (1) the
 approach State and the U.S. Agency for International Development (USAID) used to attribute and report on the use of
 funds covering activities for Afghan women and girls during fiscal years 2008 and 2009, (2) the extent to which specific
 earmarks to certain organizations met congressional directives, and (3) whether reported activities were consistent with
 Afghan national strategies, including the National Action Plan for the Women of Afghanistan (NAPWA) which the U.S.
 supports. We analyzed legislation pertaining to Afghan women and girls and reviewed the 2008 and 2009 reports
 submitted to Congress describing U.S.-funded activities for women and girls in Afghanistan. We discussed the earmark
 attributions and reported activities with officials from USAID, State, and the government of the Islamic Republic of
 Afghanistan. We conducted our work in Kabul, Afghanistan, and Washington, D.C., from November 2009 to July 2010 in
 accordance with generally accepted government auditing standards.

 What SIGAR Found
 State and USAID did not coordinate their approach to reporting on the use of funds earmarked for Afghan women and girls.
 The reports submitted to Congress in 2008 and 2009 did not provide complete and consistent information about the
 reported activities in which women and girls were intended beneficiaries, such as relating the activities to numbers of
 female beneficiaries or services provided. Although State and USAID took action in the past year to coordinate gender-
 related issues in Kabul, State did not develop guidelines or a rationale for determining and reporting earmark attributions.
 As a result, the reports to Congress did not provide a clear picture of how the funds were used to address the needs of
 Afghan women and girls.

 State and USAID partially met specific congressional directives, which directed support to organizations such as the Ministry
 of Women’s Affairs (MoWA), the Afghanistan Independent Human Rights Commission, and Afghan women-led non-
 governmental organizations and civil society organizations. MoWA, for example, did not receive appropriated funds in each
 year in which it was mentioned in legislation.

 Although U.S. policy is to support women’s rights and Afghanistan national strategies, the 2009 report did not show
 linkages between U.S.-funded activities and Afghan goals and benchmarks detailed in the NAPWA—a key benchmark of the
 Afghan government through which the Afghanistan government seeks to realize its gender equity goals. Such linkage is
 important to ensure that the reported activities address the needs of Afghan women and girls.
 What SIGAR Recommends
 SIGAR recommends that the Secretary of State, in consultation with the USAID Administrator: (1) develop consistent
 reporting requirements for all USAID and State programs and activities to provide data on female beneficiaries and
 measurable impacts of activities intended to address the needs of Afghan women and girls; (2) develop a coordinated
 approach for determining the earmark attribution amounts and reporting on the use of earmarked funds that provides
 consistent information about each activity, identifies funding sources, and provides the rationale for reporting activities;
 (3) align activities to ensure consistency with the goals and benchmarks stated in the U.S.-supported Afghanistan’s national
 strategies, particularly
               `           the NAPWA; and (4) target funds to address the organizations specified in the legislation, including
 MoWA, the Afghanistan Independent Human Rights Commission, and Afghan women-led non-governmental organizations
 and civil society organizations to ensure appropriated funds are used as directed by Congress and address the needs of
 Afghan women and girls.
                                                                 i
 In response to a draft of this report, State and USAID concurred with SIGAR’s recommendations.

                      For more information contact: SIGAR Public Affairs at (703)602-8742 or PublicAffairs@sigar.mil




SIGAR Audit-10-13 Development/Women and Girls                                                                                Page i
TABLE OF CONTENTS

Background ................................................................................................................................................... 2
State Did Not Coordinate With USAID On An Approach to Report and Attribute
     Earmarks for Activities to Address the Needs of Afghan Women and Girls ......................................... 5
Specific Earmarks to Designated Afghan Organizations Partially Met Congressional
    Directives............................................................................................................................................. 10
Reported Activities for Women and Girls Are Not Aligned With Afghanistan’s
    National Strategies .............................................................................................................................. 14
Conclusion ................................................................................................................................................... 15
Recommendations ...................................................................................................................................... 16
Comments ................................................................................................................................................... 16
Appendix I: Scope and Methodology ......................................................................................................... 17
Appendix II: Legislative References to Afghan Women and Girls and Earmark
Amounts, 2001-2010 .................................................................................................................................. 18

Appendix III: Afghanistan Independent Human Rights Commission Earmarks .......................................... 31

Appendix IV: Ministry of Women's Affairs Earmarks .................................................................................. 32

Appendix V: NGO and CSO Earmarks ......................................................................................................... 33

Appendix VI: Comments from Department of State and U.S. Agency for
International Development......................................................................................................................... 34


TABLES

Table 1: Summary of Earmark Legislation Regarding Afghan Women and Girls, Fiscal
    Years 2003 to 2010................................................................................................................................ 3
Table 2: Reporting Requirements to Describe Use of Funds for Afghan Women and Girls,
    Fiscal Years 2001 - 2010 ........................................................................................................................ 6
Table 3: Earmark Attributions by Sector for USAID Activities for Afghan Women and
    Girls, Fiscal Years 2008 and 2009 .......................................................................................................... 7
Table 4: Programs Pending Approval or Not Started During Fiscal Years 2008 and 2009........................... 8
Table 5: USAID Programs by Sector Showing Earmark Attributions as a Percentage of
    Total Programs, Fiscal Years 2008 and 2009 ....................................................................................... 10
Table 6: ASGP Grants By Amount and Purpose as of March 2010 ............................................................ 13




SIGAR Audit-10-13 Development/Women and Girls                                                                                                          Page ii
ACRONYMS

 AIHRC                  Afghanistan Independent Human Rights Commission
 ANDS                   Afghanistan National Development Strategy
 ASGP                   Ambassador’s Small Grants Program
 CSO                    Civil society organization
 ESF                    Economic Support Fund
 INCLE                  International Narcotics Control and Law Enforcement
 I-PACS                 Initiative to Promote Afghan Civil Society
 MoWA                   Ministry of Women’s Affairs
 NAPWA                  National Action Plan for the Women of Afghanistan
 NGO                    Non-governmental organization
 SIGAR                  Special Inspector General for Afghanistan Reconstruction
 USAID                  U. S. Agency for International Development




SIGAR Audit-10-13 Development/Women and Girls                                      Page iii
    Greater Coordination Needed in Meeting Congressional Directives to Address
               and Report on the Needs of Afghan Women and Girls


From 2003 through 2010, Congress has earmarked $627 million in appropriated funds to address the
needs of Afghan women and girls and has periodically directed the Department of State to report on the
use of these funds. 1 Congress has earmarked appropriated funds, in part, to express its concern that,
without greater attention to the specific challenges facing women and girls in Afghanistan, the country’s
prospects for broad-based economic growth and democratic development would be sharply reduced,
according to a 2004 conference report. 2 Although the United States and its allies cited the defense of
women’s rights as one of the primary reasons for the commitment to rehabilitate Afghanistan after the
defeat of the Taliban, Afghan women continue to be among the worst off in the world, according to a
December 2009 Human Rights Watch Report. 3 This report describes the situation of Afghan women as
“dismal” in health, education, employment, freedom from violence, equality before the law, and
political participation.

This report assesses (1) the approach State and the U.S. Agency for International Development (USAID)
used to attribute and report on the use of funds covering activities for Afghan women and girls during
fiscal years 2008 and 2009, (2) the extent to which specific earmarks to certain organizations met
congressional directives, and (3) whether reported activities were consistent with U.S. and Afghan
national strategies, including the National Action Plan for the Women of Afghanistan (NAPWA).

We focused our analysis on legislation pertaining to Afghan women and girls from 2001 to 2010 and on
the State Department’s October 2009 report on U.S.-funded activities for women and girls in
Afghanistan. 4 We also reviewed a prior report submitted to Congress in October 2008. 5 Our analysis of
the prior years’ earmarks and earmark attributions was limited due to a lack of information in the 2008
report. We discussed the earmark attributions and reported activities with officials from USAID and
State; the government of the Islamic Republic of Afghanistan, including the Afghanistan Embassy,

1
 According to the Glossary of Terms Used in the Federal Budget Process, designating any portion of a lump-sum
amount for particular purposes by means of legislative language is called “earmarking.”
2
 Making Emergency Supplemental Appropriations for Defense and for the Reconstruction of Iraq and Afghanistan
for the Fiscal Year Ending September 30, 2004, and For Other Purposes, Conference Report 108-337 to accompany
H.R. 3289, October 30, 2004.
3
 Human Rights Watch, “Afghanistan: We Have the Promises of the World”: Women’s Rights in Afghanistan,
December 2009.
4
 Department of State, Report on U.S. Government Activities 2008-2009 for Women and Girls in Afghanistan,
October 20, 2009.
5
 Department of State, Report on U.S. Government Activities 2001-2008 for Women and Girls in Afghanistan,
October 2, 2008.




SIGAR Audit-10-13 Development/Women and Girls                                                              Page 1
Washington, D.C., Ministry of Women’s Affairs (MoWA), and Afghanistan Independent Human Rights
Commission (AIHRC); and with program managers of four implementing partners. We conducted our
work in Kabul, Afghanistan, and Washington, D.C., from November 2009 to July 2010 in accordance with
generally accepted government auditing standards. Appendix I provides a detailed scope and
methodology.


BACKGROUND

In December 2001, Congress passed the Afghan Women and Children Relief Act, 6 demonstrating the
U.S. government’s concern for the welfare of Afghan women and children. The Act authorized the
President “to provide educational and health care assistance to women and children in Afghanistan and
neighboring countries . . . in a manner that protects and promotes the human rights of all people in
Afghanistan, utilizing indigenous institutions and nongovernmental organizations, especially women’s
organizations.” The Act stated that funds were to be made available from the September 2001
Emergency Supplemental Appropriations Act for Recovery from and Response to Terrorist Attacks on
the United States, 7 which appropriated $40 billion for disaster recovery and national security.

In the December 2002 Afghanistan Freedom Support Act, 8 Congress stated the U.S. objectives for
assistance to Afghan women and girls, directing that political and human rights, health care, education,
training, security, and shelter were areas in which the United States would provide support. The Act
authorized $20 million for each fiscal year from 2003 to 2006 for MoWA and the National Human Rights
Commission of Afghanistan. 9

In 2003, Congress began earmarking appropriations to address the needs of Afghan women and girls,
generally, and specifically directed earmarks to certain Afghan organizations. MoWA was specifically
designated as a recipient of assistance starting in 2003; AIHRC and Afghan women-led non-
governmental organizations (NGOs) and civil society organizations (CSOs) were designated beginning in
2004.

From fiscal years 2003 to 2010, Congress earmarked a total of $627 million in appropriated funds to
State and USAID to support activities specifically for Afghan women and girls. This report focuses on the
reported activities for Afghan women and girls during fiscal years 2008 and 2009, which includes $225
million in appropriated funds. Table 1 shows the specific legislation, earmark amounts, and intended
purposes of the earmarked funds during that time frame. The table does not include any portion of the




6
    Afghan Women and Children Relief Act of 2001, Public Law 107-81, December 12, 2001.
7
    Emergency Supplemental Appropriations for Fiscal Year 2001, Public Law 107-38, September 18, 2001.
8
    Afghanistan Freedom Support Act of 2002, Public Law 107-327, December 4, 2002.
9
 The Act authorized $5 million each year for the National Human Rights Commission of Afghanistan and $15
million for the Ministry of Women’s Affairs from 2003 to 2006.




SIGAR Audit-10-13 Development/Women and Girls                                                            Page 2
$110 million 10 in fiscal year 2003 funds earmarked for a variety of purposes, which included, but was not
solely for, Afghan women and girls. The table also does not include all U.S. government-funded
activities in Afghanistan for women and girls. For example, a total of $34 million was made available to
provide maternal health services to Afghan women through the Department of Health and Human
Services from fiscal years 2004 to 2010.

Table 1: Summary of Earmark Legislation Regarding Afghan Women and Girls, Fiscal Years 2003 to
2010
Fiscal                               Earmark
          Reference                               Purpose
Year                                ($millions)

2010      Consolidated               $175         Address the needs and protect the rights of Afghan women and
          Appropriations Act,                     directly improve the security, economic, and social well-being,
          2010                                    and political status of Afghan women and girls; including for the
                                                  AIHRC, MoWA and women-led NGOs. Of the $175 million, not
                                                  less than $20 million for capacity building of Afghan women-led
                                                  NGOs and $25 million for programs and activities of such NGOs.
2009      Making Supplemental        $150         Address the needs of Afghan women and girls, including for the
          Appropriations for                      AIHRC, MoWA and women-led NGOs. Of the $150 million, not
          the Fiscal Year ending                  less than $5 million for capacity building of Afghan women-led
          September 30, 2009                      NGOs and $25 million for programs and activities of such NGOs.
          and for other
          Purposes
2008      Consolidated                $75         Address the needs of Afghan women and girls, including for the
          Appropriations Act,                     AIHRC, MoWA, and women-led nonprofit organizations in
          2008                                    Afghanistan; State Department to provide a report on how
                                                  funds have been used since fiscal year 2002 for each sector,
                                                  amounts provided, types of activities, best practices and
                                                  measurable impacts on Afghan women and girls.
2007      Making further              $50         Address the needs of Afghan women and girls and provide
          continuing                              grants of not less than $7.5 million to support training and
          appropriations for                      equipment for to improve the capacity of women-led Afghan
          the fiscal year 2007,                   NGOs. $2 million for AIHRC and other Afghan human rights
          and for other                           organizations.
          purposes
2006      Making                      $50         Address the needs of Afghan women and girls and provide
          Appropriations for                      grants of not less than $7.5 million to support training and
          Foreign Operations,                     equipment for to improve the capacity of women-led Afghan
          Export Financing, and                   NGOs. $2 million for AIHRC and other Afghan human rights
          Related Programs for                    organizations.
          the Fiscal Year Ending
          September 30, 2006

10
  Making Further Continuing Appropriations for the Fiscal Year 2003 and for Other Purposes (Conference Report
108-110) includes $60 million in International Disaster Funds for humanitarian and reconstruction assistance,
including health and education programs . . . to improve the status of women . . . and for victims of war and
displaced persons; and $50 million in Economic Support Funds for rehabilitation of primary road . . . and women’s
development.


SIGAR Audit-10-13 Development/Women and Girls                                                                 Page 3
Fiscal                                     Earmark
           Reference                                    Purpose
Year                                      ($millions)

2005        Making                          $50         Address the needs of Afghan women and girls; make available
            Appropriations for                          $2 million for the AIHRC and other human rights organizations;
            Foreign Operations,                         provide not less than $7.5 million for small grants to improve
            Export Financing, and                       the capacity of women-led Afghan NGOs and the activities of
            Related Programs for                        these NGOs.
            the Fiscal Year Ending
            September 30, 2005
2004        Making Emergency                $65         $60 million for Afghan women and girls and $5 million for the
            Supplemental                                AIHRC; include the participation of women and advance the
            Appropriations for                          social, economic and political rights and opportunities of
            Defense and for the                         women; when possible implement programs by local civil
            Reconstruction of                           society groups. The conferees are concerned that without
            Iraq and Afghanistan                        greater attention to the specific challenges facing women and
            for the Fiscal Year                         girls in Afghanistan, the country's prospects for broad-based
            Ending September                            economic growth and democratic development will be sharply
            30, 2004                                    reduced.
2004        Making                           $5         Address the needs of Afghan women through training and
            Appropriations for                          equipment to improve the capacity of women-led Afghan NGOs
            Agriculture, Rural                          and to support the activities of such organizations.
            Development, FDA,
            and Related Agencies
            for the Fiscal Year
            ending September
            30, 2004
2003        Making Further                   $7         Not less than $50 million from Economic Support Funds for
            Continuing                                  rehabilitation of primary roads, implementation of the Bonn
            Appropriations for                          Agreement and women's development, of which not less than
            the Fiscal Year 2003                        $5 million is to support activities coordinated by MoWA,
                                                        including the establishment of women's centers. For
                                                        humanitarian and reconstruction assistance including health
                                                        and education programs, housing, to improve the status of
                                                        women, infrastructure and assistance for victims of war and
                                                        displaced persons. Up to $2 million for the National Endowment
                                                        for Democracy to establish a program for women's rights in
                                                        Afghanistan. $60m in International Development Assistance
                                                        funds for humanitarian and reconstruction assistance for the
                                                        Afghan people to include improving the status of women.

            Total                         $627
Source: SIGAR analysis of legislation as noted.
Note: The complete citations for each earmark are provided in appendix II.

An October 1982 USAID policy paper on Women in Development stated that USAID should incorporate
women into all USAID programs and projects. On March 16, 2008, USAID issued Mission Order 201.02 to
establish implementation procedures for USAID/Afghanistan budgeting, programming, and reporting
relative to gender, as well as women’s earmarks as appropriate. Specifically, the order states that



SIGAR Audit-10-13 Development/Women and Girls                                                                     Page 4
USAID/Afghanistan will implement a budgeting process that allocates women’s earmarks at the start of
each fiscal year’s budgeting cycle. The order also directed that gender, as a cross-cutting issue, shall be
addressed in all USAID Afghanistan project designs. Furthermore, a gender team was to be established
to provide guidance, coordination, and support on gender issues throughout programming. To assist
monitoring, evaluation, and reporting, members of the gender team would, among other activities:

     •   advise on gender methodologies;
     •   review planning documents, annual operational plans, and scopes of work for assessments and
         evaluations;
     •   maintain a centralized list of activities, indicators, and information and data on women-focused
         and gender activities and results; and
     •   analyze gender indicator data.

This gender team, established in 2008 and led by a USAID advisor on cross-cutting issues (gender
advisor) includes appointed staff members from each USAID technical office. Each technical office
director has the responsibility for including women-focused and gender consideration in the Mission’s
existing and new activities, for budgeting adequately for women and gender, and for addressing
women’s needs in its programs, action plans, and operational plan. The 2009 conference report also
directs USAID and the Special Envoy for Afghanistan and Pakistan to consult with the Department of
State’s Ambassador-at-Large for Global Women’s Issues concerning the use of the $150 million
earmark. 11


STATE DID NOT COORDINATE WITH USAID ON AN APPROACH TO REPORT AND ATTRIBUTE
EARMARKS FOR ACTIVITIES TO ADDRESS THE NEEDS OF AFGHAN WOMEN AND GIRLS

State did not coordinate with USAID on a standard approach to report on and attribute earmarks to
address the needs of Afghan women and girls. The reports submitted to Congress in 2008 and 2009 did
not provide consistent and complete information about the reported activities in which women and girls
were intended beneficiaries, such as relating the activities to numbers of female beneficiaries or services
provided. In addition, the reports used different timeframes for and approaches to the data presented.
Further, although State and USAID took action in 2009 to coordinate gender-related issues in Kabul,
State did not develop guidelines or a rationale for determining and reporting earmark attributions. As a
result, the reports to Congress did not provide a clear picture of how the funds were used to address the
needs of Afghan women and girls.

State Required to Report on Activities for Afghan Women and Girls Since 2001

From 2001 to 2010, Congress requested periodic reporting from State on the use of funds regarding
Afghan women and girls (as shown in table 2). The first reporting requirement established in 2001
under the Afghan Women and Children Relief Act directed the Secretary of State to submit a minimum
of three reports to Congress between 2002 and 2004. However, this reporting requirement was not
fulfilled by State. State and USAID officials and congressional committee staff members were unable to
identify any reports prepared and submitted in association with this requirement. In 2008, Congress
established another reporting requirement for State on the use of funds for Afghan women and girls

11
  The 2009 conference report refers to the legislation titled Making Supplemental Appropriations for the Fiscal
Year Ending September 20, 2009 and for other purposes, Report 111-151, June 12, 2009.


SIGAR Audit-10-13 Development/Women and Girls                                                               Page 5
from 2002 through 2008, to include how funds have been used for each sector, amounts provided, types
of activities, and best practices and measurable impacts on the livelihood and status of Afghan women
and girls. A similar requirement was repeated in 2009, to describe the use of funds provided in fiscal
years 2008 and 2009 to address the needs of Afghan women and girls. In 2010, the requirement was
expanded to include in the reporting the results to date of efforts undertaken to prevent discrimination
and violence against women and girls, provide economic and leadership opportunities, and improve
security for women and girls. Congress also required that State prepare the report in consultation with
USAID.

Table 2: Reporting Requirements to Describe Use of Funds for Afghan Women and Girls, Fiscal Years
2001 - 2010
 Act                     Reporting Requirement                                                          Report Date

                                                                                                        Reports
                         Beginning 6 months after the date of enactment of this Act, and at least
                                                                                                        were not
 Afghan Women            annually for the 2 years thereafter, the Secretary of State shall submit a
                                                                                                        prepared
 and Children            report describing the activities carried out under this Act, including the
                                                                                                        and/or not
 Relief Act, 2001        condition and status of women and children in Afghanistan and persons in
                                                                                                        submitted
                         refugee camps while United States aid is given to displaced Afghans.
                                                                                                        to Congress
                         The Department of State is directed to provide a report as recommended in      Report
                         Senate Report 110–128 under the ‘‘Development Assistance’’ heading. The        dated
 Consolidated
                         report should describe how funds have been used since fiscal year 2002 by      October 2,
 Appropriations
                         sector, the amounts provided, types of activities supported, best practices    2008
 Act, 2008
                         identified, and measurable impacts on the livelihood and status of women
                         and girls.
                         The Department of State shall submit a report to the Committees on             Report
 Omnibus
                         Appropriations not later than September 30, 2009, describing the use of        dated
 Appropriations
                         funds provided in fiscal years 2008 and 2009 to address the needs of           October 20,
 Act, 2009
                         Afghan women and girls.                                                        2009
 Departments of          Not later than September 30, 2010, the Secretary of State, in consultation     Due
 Transportation          with the USAID Administrator, shall submit a report to the Committees on       September
 and Housing and         Appropriations detailing the uses of funds provided in fiscal years 2009 and   30, 2010
 Urban                   2010 to address the needs and protect the rights of Afghan women and
 Development,            girls, including results to date.
 and Related
 Agencies
 Appropriations
 Act, 2010
Source: SIGAR analysis of legislation as noted.
Note: The complete citations for each earmark are provided in appendix II.

State submitted two reports to Congress, one dated October 2008 and another in October 2009. The
2008 report described activities for women and girls by development sector in a narrative format but did
not provide a detailed list of activities, the earmarks and funds attributed to them, or funding amounts.
The October 2009 Report on U.S. Government Activities 2008-2009 for Women and Girls in Afghanistan,
October 20, 2009, used a narrative format but also included an appendix that listed the activities and the
earmarks attributed to them. The next report is due September 30, 2010, and directs the Secretary of



SIGAR Audit-10-13 Development/Women and Girls                                                                 Page 6
State, in consultation with USAID Administrator, to detail the use of funds provided in fiscal years 2009
and 2010 to address the needs and protect the rights of Afghan women and girls.

Reports Submitted to Congress in 2008 and 2009 Did Not Provide Consistent and Complete
Information about Activities that Benefitted Women and Girls

The reports submitted to Congress did not provide consistent and complete information about U.S.-
funded activities that benefitted women and girls. State did not attribute any of the earmarked funds,
whereas USAID attributed the full earmarks to its activities for Afghan women and girls for fiscal years
2008 and 2009. USAID reported that as of August 2009, it had spent $78.3 million in fiscal year 2008,
exceeding the earmark of $75 million for that year. USAID reported that for fiscal year 2009 it spent $60
million and anticipated spending $93 million for a total of $153 million, exceeding the earmark for that
year. Table 3 shows the earmark attributions that USAID made by sector for fiscal years 2008 and 2009.

Table 3: Earmark Attributions by Sector for USAID Activities for Afghan Women and Girls, Fiscal Years
2008 and 2009
                                                          FY 2008                                FY 2009

                                                 No. of                                 No. of
 Sector                                       Programs              Attribution      Programs               Attribution


 Agriculture and Alternative
 Development                                       9            $5,260,314               10            $33,088,431

 Cross-cutting Programs                            2          $19,000,000                  2           $24,000,000

 Democracy and Governance                          8          $12,008,317                12            $18,714,053

 Economic Growth                                   2            $7,050,000                 2           $11,000,000

 Education                                         4            $7,076,806                 2           $10,375,000

 Health                                            2          $16,058,600                  2           $28,294,420

 Infrastructure                                    3            $7,075,930                 3             $9,858,898
 Provincial Reconstruction Teams                   1            $4,800,000                 5           $17,700,000

 Total                                            31          $78,329,967                38           $153,030,802

 Source: SIGAR analysis and Report on U.S. Government Activities 2008-2009 for Women and Girls in Afghanistan, October
 20, 2009, Department of State and USAID.


In the 2009 report submitted to Congress, State and USAID reported their activities and funds in
separate sections that used different approaches and timeframes, which presented an incomplete
picture of the use of funds for fiscal years 2008 and 2009. Although State was not reporting earmarks, it
provided information by programs within department bureaus. USAID, on the other hand, reported its
activities by sector, such as alternative development and agriculture, as shown in the table above.

Although USAID was to allocate women’s earmarks at the start of each fiscal year’s budgeting cycle,
some of the reported activities included those funded in prior years (2006 and 2007). A USAID official



SIGAR Audit-10-13 Development/Women and Girls                                                                      Page 7
stated that fiscal year allocations are received at the end of the fiscal year; thus, reporting on fiscal years
2008 and 2009 spending could not technically take place until after fiscal year 2009. The 2009 report,
therefore, covers many activities that were funded with prior years’ appropriations and includes
activities that were anticipated to begin in fiscal year 2010. In USAID’s section of the 2009 report, we
identified six programs that had received earmark attributions in fiscal years 2008 and 2009, but had not
started by the time the 2009 report was issued. According to USAID officials and details in the 2009
report, the programs had not been approved, were pending approval, or had not started by the end of
fiscal year 2009. The earmark attributions for these six programs may have overstated total
attributions. The programs total $42.3 million, or about 18.8 percent of attributions for fiscal years 2008
and 2009, as shown in table 4.

Table 4: Programs Pending Approval or Not Started During Fiscal Years 2008 and 2009

 Program                                                 Fiscal Year 2008        Fiscal Year 2009      Total ($ millions)
                                                               ($millions)             ($millions)

 Program/Total Earmark                                           $75.0                 $150.0                 $225.0
 Ambassador’s Small Grant Program                                 $8.3                  $10.0                   $18.3
 Provincial Governors Incentive Fund                                                      $0.7                   $0.7
 Municipal Governance Strengthening Fund                                                  $2.0                   $2.0
 Youth Workforce Development Project                                                      $6.3                   $6.3
 Sustainable Water and Sanitation Program                         $4.6                    $8.3                  $12.9
 Community Based Stabilization Grants                                                     $2.2                   $2.2
 Total                                                           $12.9                  $29.4                   $42.3
 Percentage of Annual Earmark                                     17%                   19.6%                  18.8%
Source: SIGAR analysis and Report on U.S. Government Activities 2008-2009 for Women and Girls in Afghanistan, October 20,
200, Appendix One.
Note: Discrepancies in addition due to rounding.

Also, although many of the reported activities spanned several years (beyond the 2-year reporting
window), the report did not include enough detail to identify which activities took place in a particular
fiscal year or whether the funds were obligated or spent in that year.

The report did not clearly state whether the funds were Economic Support Fund (ESF) or International
Narcotics Control and Law Enforcement (INCLE) funds and did not clearly state what amount of these
funds were spent in which year. According to legislation, the 2009 report should have covered the use of
(1) $75 million in earmarked appropriated funds in fiscal year 2008, and (2) $150 million in earmarked
ESF and INCLE appropriated funds in fiscal year 2009. 12 In addition, the State Department section of the
report included activities funded from sources other than INCLE and from fiscal years other than 2008
and 2009. Other funding sources included Migration and Refugee Assistance funds, funds raised through
the private sector, and Afghanistan Security Forces Funds transferred from the Department of Defense.

12
  The Omnibus Appropriations Act, 2009 includes an earmark of $100 million for Afghan women and girls, while
the Supplemental Appropriations Act, 2009, states a $150 million earmark. According to a congressional
appropriations committee staff member, Congress intended the total earmark to be $150 million, an increase of
$50 million from the Omnibus Appropriations Act earmark of $100 million.


SIGAR Audit-10-13 Development/Women and Girls                                                                       Page 8
State Did Not Coordinate with USAID on an Approach to Develop Guidelines for Determining
and Reporting Earmark Attributions

State did not have a process with USAID to develop guidelines or coordinate an approach to determining
and reporting earmark amounts for fiscal years 2008 and 2009. Although State and USAID took action in
the past year to coordinate gender-related issues in Kabul through the establishment of an interagency
group, the group did not participate in determining earmark attributions. The U.S. Embassy, Kabul,
established an Interagency Gender Policy Working Group around July 2009, chaired by the Coordinating
Director for Development and Economic Affairs, to strengthen and coordinate gender-related efforts.

In commenting on a draft of this report, State and USAID proposed creating a Gender Task Force for
Afghanistan—co-chaired by the Ambassador-at-Large for Women’s Issues and the Embassy’s
Coordinating Director for Development and Economic Affairs—to improve coordination among agencies
and offices providing foreign assistance to benefit Afghan women. According to State and USAID, the
Gender Task Force will be responsible for ensuring coordination of programs and policies affecting
Afghan women and girls, ensuring that indicators and performance outcomes are consistent with the
NAPWA, and certifying the creation of a unified tracking mechanism for monitoring progress of
programs and informing Congress about the use of resources.

Even though State officials said that not all State activities for Afghan women and girls were included in
the 2009 report, no explanation was provided in the report as to why certain activities were included
and others were not. The report included details about, but no earmark attributions for, activities in
three State bureaus: (1) Bureau of Population, Refugees, and Migration; (2) Bureau for International
Narcotics and Law Enforcement Affairs; and (3) Bureau of Democracy, Human Rights and Labor, and the
Office to Monitor and Combat Trafficking in Persons. Total estimated amounts of $10.3 million in fiscal
year 2008 and $17.4 million in fiscal year 2009 allocated through INCLE to support activities benefitting
women and girls were listed in a chart, but these amounts were not included in the earmarks. 13

According to USAID Mission officials, earmark attributions for USAID-funded activities were made based
on discussions with gender team members, program and finance officials, gender specialists, and the
gender advisor. USAID began tracking attributions in 2008 in an earmark “tracker” that was updated
throughout the year. However, we were unable to correlate information in the tracker with information
in the 2009 report.

USAID’s rationale for attributing earmarks to reported activities was unclear. Although USAID’s policy is
to incorporate gender-related concerns into all its programs, we found that not all USAID programs with
female beneficiaries received earmark attributions, as might be expected. As shown in table 5, 38
percent of USAID programs in Afghanistan in fiscal year 2008 and 44 percent in fiscal year 2009 had
earmark attributions. In the health sector, for example, where it states in the 2009 report that women
and girls account for 61 percent of outpatient visits and 56 percent of inpatient admissions, 2 of 16
programs in fiscal year 2008 and 2 of 19 in fiscal year 2009 received attributions. No explanation was
provided in the report as to why programs with substantial numbers of female beneficiaries did not
receive attributions.




13
  INCLE includes $4.2 million in fiscal year 2008 and $2.5 million in fiscal year 2009 transferred from the
Department of Defense.


SIGAR Audit-10-13 Development/Women and Girls                                                                 Page 9
Table 5: USAID Programs by Sector Showing Earmark Attributions as a Percentage of Total Programs,
Fiscal Years 2008 and 2009
                                                   Fiscal Year 2008                    Fiscal Year 2009
 Sector
                                                Total      Programs With             Total       Programs with
                                            Programs          Attributions       Programs          Attributions

 Agriculture and Alternative
 Development                                    20                     9              19                   10

 Cross-cutting Programs                           1                   *2               2                    2

 Democracy and Governance                       15                     8              14                   12

 Economic Growth                                  8                    2               7                    2

 Education                                      13                     4              12                    2

 Health                                         16                     2              19                    2

 Infrastructure                                   7                    3               8                    3

 Provincial Reconstruction Teams                  2                    1               6                    5

 Total                                          82                    31              87                   38
 Programs with Earmark
                                                                   38%                                   44%
 Attributions (Percentage)
Sources: SIGAR analysis; Report on U.S. Government Activities 2008-2009 for Women and Girls in Afghanistan, October 20, 2009;
and USAID website: http://afghanistan.usaid.gov/en/Index.aspx, as of March 5, 2010.
Note: Two cross-cutting programs are listed with fiscal year 2008 attributions in the 2009 Report; however, the USAID website
shows only one cross-cutting program for 2008.

In contrast, one program that represented 20 percent of all fiscal year 2009 attributions did not mention
women as beneficiaries in USAID documentation describing the program. The program, the Afghanistan
Vouchers for Increased Productive Agriculture received a $30 million attribution in 2009. The program,
originally intended to respond to a food crisis in 2007-2008, was revised to undertake cash-for-work
activities, a small grants program, and agricultural product distribution in two southern provinces in
which the U.S. military planned a surge. 14


SPECIFIC EARMARKS TO DESIGNATED AFGHAN ORGANIZATIONS PARTIALLY MET
CONGRESSIONAL DIRECTIVES

The legislation specified that certain Afghan organizations receive earmarks of specific amounts. State
and USAID partially met the 2001 to 2009 congressional directives in their support to activities for


14
  USAID Office of the Inspector General, “Audit of USAID/Afghanistan’s Afghanistan Vouchers for Increased
Productive Agriculture (AVIPA) Program,” Audit Report No. 5-306-10-008-P, April 20, 2010. USAID’s Inspector
General could not determine the precise number of farmers that had benefited from the activity and did not
mention women as program beneficiaries.




SIGAR Audit-10-13 Development/Women and Girls                                                                        Page 10
Afghan women and girls. In 2003 and 2004, legislation began to direct support to two Afghan
organizations, MoWA and AIHRC, and Afghan women-led non-governmental organizations (NGOs) and
civil society organizations (CSOs). However, the funding amounts to support these organizations only
partially met the congressional directives.

Ministry of Women’s Affairs

Since 2003, the Afghan Ministry of Women’s Affairs (MoWA), which has responsibility for implementing
Afghan government policies to secure and expand the legal rights of women and implement
government political and social policies, received about $9 million in assistance through USAID.
Legislation in 2003 directed that MoWA was to receive specific funding of $5 million. From 2008 to
2009, Congress directed that MoWA was to be assisted with a portion of $225 million earmarked “to
support programs that directly address the needs of the rights of Afghan women and girls, including . . .
the Ministry of Women’s Affairs.” 15 Additionally, the Afghanistan Freedom Support Act of 2002 16
authorized the President to appropriate up to $60 million from 2003 to 2006 to support MoWA, though
we did not include this amount in the table of earmarked appropriations. 17 (Appendix III shows the
legislation and funding amounts by fiscal year for the earmarks pertaining to the Ministry of Women’s
Affairs.)

We identified only two programs totaling approximately $9 million that addressed the directives to
support MoWA. The first was initiated in January 2003, by USAID’s Office of Transition Initiatives and
included $2.5 million to construct provincial women’s centers. A second program of $6.44 million was
executed by USAID through a cooperative agreement with the Asia Foundation to implement the
Ministry of Women’s Affairs Initiative to Strengthen Policy and Advocacy program. 18 While the lowest
threshold of specified funding, $5 million, was surpassed, MoWA did not receive support in each year in
which it was mentioned in legislation.

Afghanistan Independent Human Rights Commission

According the AIHRC chairperson, AIHRC received $5 million from USAID in 2004 for the 3-year period
2004 to 2007. 19 However, AIHRC was to receive not less than a total of $11 million from 2004 to 2007,
according to the legislation. In addition, from 2008 to 2009, the legislation directed that AIHRC was to
be assisted with a portion of $225 million earmarked to “support programs that directly address the


15
  The $400 million in earmarked appropriated funds includes $175 million in 2010, $150 million in 2009, and
$75 million in 2008 (see Appendix III).
16
     Afghanistan Freedom Support Act of 2002, Public Law 107-327.
17
  The authorized funds are not included in the earmarked amounts since we could not identify any related
appropriated funds.
18
  The program began in January 2006 and was extended through January 2011, three years beyond its original end
date.
19
   AIHRC, also formed as a result of the December 2001 Bonn Agreement, is mandated to protect and promote
rights and freedoms enshrined in Afghanistan’s Constitution, international declarations, international conventions
on human rights, human rights protocols, and other international human rights instruments.




SIGAR Audit-10-13 Development/Women and Girls                                                              Page 11
needs and protect the rights of Afghan women and girls, including for the Afghanistan Independent
Human Rights Commission.” 20 Further, the 2002 Afghanistan Freedom Support Act authorized the
President to appropriate up to $20 million to support the AIHRC from 2003 to 2006. 21 Appendix IV
shows the legislation and funding amounts by fiscal year for the earmarks pertaining to AIHRC.

The 2009 report submitted to Congress does not report on any funds provided to AIHRC. The $5 million
was below the $11 million minimum directed by Congress to support the AIHRC, and AIHRC did not
receive support in each year in which it was mentioned in legislation. 22 According to the AIHRC
chairperson, an additional $100,000 was received from the State Department’s Bureau of International
Narcotics and Law Enforcement in 2008, but she stated that she had not had meetings or funding
discussions with U.S. government representatives for several years. In commenting on a draft of this
report, State and USAID stated that the U.S. government has been advised by the donor group not to
provide any funds to the AIHRC until issues are resolved regarding the Afghan government’s
contributions to AIHRC and guarantee of full independence.

Afghan Women-Led Nongovernmental Organizations and Civil Society Organizations

Legislation from 2004 to 2009 directed that a total of $57.5 million be used to support Afghan women-
led NGOs and CSOs. In addition, an unspecified amount of the $75 million fiscal year 2008 earmark was
also to be used to support Afghan women-led NGOs and CSOs. (Appendix V shows the legislation and
funding amounts by fiscal year for the earmarks pertaining to NGOs and CSOs.) However, the 2009
report provided a summary of four programs with attributions totaling $15 million. The four programs
supporting the $15 million earmark, according to the 2009 report, are (1) the Ambassador’s Small Grants
Program ($10 million); (2) Initiative to Promote Afghan Civil Society ($3 million), (3) Afghanistan Small
and Medium Enterprise Development Project ($1 million), and (4) Local Governance and Community
Development Project ($1 million). 23

The Ambassador’s Small Grants Program (ASGP) was announced in June 2009 as a $26.3 million program
to award small grants totaling $8.9 million. The program was re-launched in January 2010 and overall
funds available were decreased to $20.3 million, according to a State official. Under the ASGP program,
the implementing partner is to identify women-led and gender-focused organizations lacking capacity
and award grants, including quick-impact grants of $4,000 to $5,000, based on a 12-step approval

20
 The $225 million in earmarked appropriated funds includes $150 million in 2009 and $75 million in 2008 (see
Appendix IV).
21
     As with MoWA, we did not include authorized funds in earmark totals.
22
  In commenting on a draft of this report, State and USAID noted a $2 million subcontract under USAID’s
Afghanistan Rule of Law Project that provided salary support to AIHRC staff in fiscal year 2007. This amount was
not reported in State’s 2009 report.
23
  The Omnibus Appropriations Act of 2009, included an earmark of $100 million, of which $15 million was to be
provided for training and equipment to improve the capacity of women–led Afghan nongovernmental
organizations, and to support the activities of such organizations. A similar earmark was included in the
supplemental 2009 appropriations, Making Supplemental Appropriations for the Fiscal Year Ending September 30,
2009, and for Other Purposes), which directed not less than $5 million for capacity building for Afghan women-led
NGOs, and not less than $25 million to support programs and activities of such organizations. While the earmarks
were similar in directives, the amounts and language differed. USAID interpreted and the 2009 report identified
attributions only for the $15 million earmark.


SIGAR Audit-10-13 Development/Women and Girls                                                              Page 12
process. Approvals are to be made by a five-person grant evaluation team at the U.S. Embassy Kabul; a
seven-person selection committee comprised of USAID, U.S. Embassy Kabul, implementing partner staff,
and the U.S. Ambassador to Afghanistan. The first five grants were made in January 2010, as shown in
table 6.

Table 6: ASGP Grants By Amount and Purpose as of March 2010

 Grant Amount              Grant Purpose

         $4,550            Purchase lace-making equipment for vocational training

         $6,400            Purchase 20 milking cows for 40 women
         $8,000            Purchase radio equipment to expand coverage for Morning Star Radio

         $7,850            Provide courses on computers and expanded English
         $3,140            Provide eye care education
Source: USAID


In commenting on a draft of this report, State and USAID also noted that, as of June 2010, the ceiling on
ASGP’s funding had been raised by more than $18.6 (from about $20.3 million to about $38.9 million),
which will allow the program to expand to all 34 provinces in Afghanistan. Direct grants to Afghan
women-focused NGOs will increase from $8.9 million to $16.9 million.

USAID’s Initiative to Promote Afghan Civil Society program ($3 million) started in 2005 as a 3-year, $15
million program. 24 The program surveyed 678 civil society organizations, including nongovernmental
organizations and shuras, or traditional governing bodies, and based on this information, identified
those that were women-led organizations and those with a gender focus. Key components of the I-PACS
program were to select CSOs that had demonstrated potential for providing civil society leadership in
Afghanistan and to devise effective ways to foster and build their capacity. Over time, the program
produced a network of CSOs and NGOs. About 121 women-led organizations that have been vetted over
time are now associated with I-PACS, as of February 2010.

For the Afghanistan Small and Medium Enterprise Development Project ($1 million), a substantial
portion of the funds ($500,000 in fiscal years 2008 and 2009) were provided to support the daily
operations of one NGO, the Afghan Women Business Federation. The project does not build the capacity
of multiple NGOs.

Local Governance and Community Development Project ($1 million) is a program managed through the
Provincial Reconstruction Teams in partnership with local communities. Generally, the project is
intended to strengthen local governments’ capacity for development projects and promote the inclusion
of women in Provincial Development Councils and government training programs. However, the project
description did not include specific support to women-led NGOs or CSOs and did not specifically
mention the extent to which there were female beneficiaries.




24
     I-PACS funding was increased to $25.5 million as of January 2010 and the program was extended.


SIGAR Audit-10-13 Development/Women and Girls                                                         Page 13
Of the programs listed in the report, the two intended to support capacity building of NGOs and CSOs
were the (1) Initiative to Promote Afghan Civil Society (I-PACS) and the (2) Ambassador’s Small Grants
Program. Both programs had similar objectives—to support Afghan women-led NGOs and CSOs and
provide small grants. Despite having similar objectives, State and USAID officials were unaware of the
similarity of the programs and did not consult with or use already existing data from the earlier I-PACS
program to identify potential NGOs and CSOs suitable for participation in ASGP. In commenting on a
draft of this report, State and USAID noted that the agencies are now engaged in sharing information
and are collaborating on a regular basis.


REPORTED ACTIVITIES FOR WOMEN AND GIRLS ARE NOT ALIGNED WITH AFGHANISTAN’S
NATIONAL STRATEGIES

While the United States has a stated policy to support women’s rights, gender integration, and
Afghanistan national strategies, the 2009 report does not clarify how U.S.-funded activities supported
these goals, nor does the report provide linkages between U.S.-funded activities and Afghan goals and
benchmarks detailed in the NAPWA. In addition, the 2009 report reinforces the importance of the
NAPWA by stating that the “NAPWA enables the United States to ensure that gender-related activities
support the goals of the Afghan government.”

The reported activities in the 2009 report are not specifically linked to the overall U.S. strategy for
Afghan women and girls or the Afghan national strategies. In January 2010, the Secretary of State
outlined a plan to support women’s initiatives in the Women’s Action Plan for Afghanistan, which states
that the promotion of women’s rights is integrated into the overall U.S. strategy and all key programs.
The Secretary stated that, “women are key to every element of this agenda—from strengthening the
economic sector, to promoting good governance, to energizing civil society, to sustaining peace and
security. Progress is not possible if half a country’s population is left behind.” However, when the
Secretary of State announced the Afghanistan and Pakistan Regional Stabilization Strategy 25 in January
2010, it contained few references to Afghan women and girls.

Following congressional criticism about the omission, the strategy was re-released in February 2010 with
a new section, “Advancing the Rights of Afghan Women.” The strategy now states that support for these
goals is to be integrated throughout all U.S. programs in Afghanistan detailed in the Stabilization
Strategy. Moreover, the Women’s Action Plan for Afghanistan, announced by the Secretary of State,
states that “the United States Government is committed to the Afghan leadership of programs that
directly enhance development, particularly as it relates to women’s issues, and as laid out in both the
Afghan National Development Policy (ANDS), and more specifically, the 10-year National Action Plan for
Women of Afghanistan (NAPWA).” The 2009 report on U.S. government-funded activities, however,
does not state how the goals are integrated into the Afghan national strategies, particularly the NAPWA.

The NAPWA, a key tool of the Ministry of Women’s Affairs and Afghan government’s primary vehicle for
promoting women’s rights and participation in rebuilding Afghanistan, provides direction to Afghan
government ministries on working toward gender equality and achieving specific targets from 2008 to
2018. The full implementation of the NAPWA is the primary measurable benchmark through which the


25
  The Secretary of State’s Afghanistan and Pakistan Regional Stabilization Strategy is intended to build long-lasting
partnerships with Afghanistan and Pakistan, and according to Secretary Clinton, offers the best prospect for
stabilizing Afghanistan and Pakistan.


SIGAR Audit-10-13 Development/Women and Girls                                                                Page 14
Afghanistan government seeks to realize its goals on gender equity, according to the NAPWA. The
NAPWA identifies goals and key indicators for all sectors. With education, for example, goals are to
increase girls’ enrollment by 50 percent in primary, secondary, and tertiary schools; achieve at least
70 percent net enrollment in primary schools; and increase the retention rate of females to 50 percent.

The NAPWA builds upon the Afghanistan National Development Strategy (ANDS), which establishes
Afghanistan’s priorities for security, governance, economic growth, and poverty reduction. The U.S.
government, along with other donors, agreed to align aid commitments to Afghanistan with the ANDS in
the June 12, 2008, Declaration of the Conference in Support of Afghanistan. In addition, Afghan women
civil society leaders support the NAPWA and have recommended that international donors make aid
contingent on implementing policies that support the advancement of women in Afghanistan. 26


CONCLUSION

Earmarks of appropriated funds for addressing the needs of Afghan women and girls have significantly
increased over time, from $5 million in 2003 to $175 million for 2010. While Congress has directed State
to report on the use of these funds for Afghan women and girls, the reporting has been incomplete and
has not provided a clear picture of how the funds have been used to benefit Afghan women and girls.
Additionally, organizations including MoWA, AIHRC, and Afghan women-led NGOs and CSOs received
only partial amounts of the funds earmarked for them by Congress. The United States supports the
Afghanistan government’s National Action Plan for the Women of Afghanistan, which established goals,
strategies, and benchmarks for gender equity for women of Afghanistan. However, the 2009 report to
Congress does not show how U.S.-funded activities support these goals or demonstrate the linkages
between the U.S.-funded activities to the goals and benchmarks in the plan. Such linkage is important
to ensure that the reported activities are addressing the needs of Afghan women, consistent with
congressional directives.




26
  In the lead-up to the January 28, 2010 London Conference on Afghanistan, Afghan women rights defenders
released a statement with strong, specific recommendations on security, development, and governance priorities
for Afghanistan on January 27, 2010.


SIGAR Audit-10-13 Development/Women and Girls                                                          Page 15
RECOMMENDATIONS

Prior to developing the next report to Congress, which is due by September 30, 2010, SIGAR
recommends that the Secretary of State, in consultation with the USAID Administrator:

   (1) develop consistent reporting requirements for all USAID and State programs and activities to
       provide data on female beneficiaries and measurable impacts of activities intended to address
       the needs of Afghan women and girls;

   (2) develop a coordinated approach to reporting on the use of earmarked funds that provides
       consistent information about each activity, identifies funding sources, allocates earmarks at the
       start of each fiscal year’s budgeting cycle, and provides the rationale for reporting activities and
       for determining the earmark attribution amounts;

   (3) align activities to ensure consistency with the goals and benchmarks stated in the U.S.-
       supported Afghanistan’s national strategies, particularly NAPWA; and

   (4) target funds to specifically address the organizations repeatedly specified in the legislation,
       including MoWA, AIHRC, and Afghan women-led NGOs and CSOs to ensure appropriated funds
       are used as directed by Congress and address the needs of Afghan women and girls.


COMMENTS

State, USAID, and the U.S. Embassy in Afghanistan provided joint comments on a draft of this report.
The comments are included in appendix VI. The U.S. Ambassador to Afghanistan, the Ambassador-at-
Large for Women’s Issues, the Secretary’s Special Representative for Afghanistan and Pakistan, and the
USAID Administrator concurred with the report’s recommendations and provided additional
information. In their comments, they outlined actions they would take to address the report’s
recommendations, including:
   •   developing language to insert into each agreement that specifies reporting requirements,
       including outcomes and performance measures;
   •   proposing the creation of a Gender Task Force, co-chaired by the Ambassador-at-Large for
       Global Women’s Issues and the Coordinating Director for Development and Economic Affairs, to
       ensure coordination among those providing assistance to Afghan women;
   •   working to develop an interagency strategy aligned with the NAPWA, incorporating NAPWA-
       related indicators in the Mission’s performance management plan, and continuing to move
       toward Afghan-led development as a key component of all U.S. assistance in Afghanistan; and
   •   developing stronger earmark tracking within individual programs that focus on MOWA, AIHRC,
       and NGOs so that they can meet specific congressional directives.

In their comments, State and USAID noted that although our review focused on Congressional earmarks
for over seven years, we only provided analysis of the 2009 fiscal year period. As stated in our scope
and methodology, we analyzed legislation pertaining to Afghan women and girls from 2001 to 2010. We
focused our analysis on the State Department’s October 2009 report to Congress, which was intended to
cover fiscal year 2008 and 2009 activities. Our analysis of the prior years’ earmarks and earmark
attributions was limited due to a lack of information in the 2008 report to Congress, which required
reporting on activities from fiscal year 2001 through 2008.


SIGAR Audit-10-13 Development/Women and Girls                                                       Page 16
APPENDIX I: SCOPE AND METHODOLOGY

We focused our review on the October 2009 report on U.S.-funded activities for Afghan women and girls
titled Report on U.S. Government Activities 2008-2009 for Women and Girls in Afghanistan, October 20,
2009. We also reviewed the prior report submitted to Congress titled Report on U.S. Government
Activities 2001-2008 for Women and Girls in Afghanistan, which described activities by sector in a
narrative format but did not provide a detailed list of activities, the earmarks attributed to them, or
funding amounts. Therefore, we could not rely on the 2008 report for detailed information about
earmark attributions in prior years.

To review the process for attributing and reporting on the use of funds, we interviewed USAID and State
officials. State officials included representatives from the Office of Global Women’s Issues Ambassador
at Large; Population, Refugees and Migration/Education and Cultural Affairs; Democracy, Human Rights
and Labor; South and Central Asian Affairs/Afghanistan Desk; and International Narcotics and Law
Enforcement/Afghanistan. USAID officials interviewed included gender and legislative affairs advisors;
sector program officers for agriculture, democracy and governance, economic growth, education, and
health; and program and finance officers.

To determine the extent to which the reported activities met the congressional directives, we identified
the congressional directives in legislation from 2001 to 2010 and identified the reported activities that
addressed the directives. We also verified legislative directives for fiscal year 2009 with congressional
officials. We met with State and USAID officials to discuss the reported activities and obtain additional
documentation.

To determine whether the reported activities were consistent with U.S. and Afghan national strategies,
we reviewed State Department strategy documents, including the recently announced Afghanistan-
Pakistan Regional Stabilization Policy, USAID agency-wide gender policy, and USAID Mission policy on
gender integration in Afghanistan and USAID’s 5-year strategic plans for several years. We also
reviewed the Afghanistan national strategies supported by the international community and those that
addressed the needs of women, which included the 2008 National Action Plan for the Women of
Afghanistan. We also met with four implementing partners and officials from the Government of the
Islamic Republic of Afghanistan, including MoWA and AIHRC.

We conducted our work in Kabul, Afghanistan, and Washington, D.C., from November 2009 to July 2010
in accordance with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




SIGAR Audit-10-13 Development/Women and Girls                                                     Page 17
SIGAR Audit-10-13 Development/Women and Girls   Page 18
SIGAR Audit-10-13 Development/Women and Girls   Page 19
SIGAR Audit-10-13 Development/Women and Girls   Page 20
SIGAR Audit-10-13 Development/Women and Girls   Page 21
SIGAR Audit-10-13 Development/Women and Girls   Page 22
SIGAR Audit-10-13 Development/Women and Girls   Page 23
SIGAR Audit-10-13 Development/Women and Girls   Page 24
SIGAR Audit-10-13 Development/Women and Girls   Page 25
SIGAR Audit-10-13 Development/Women and Girls   Page 26
SIGAR Audit-10-13 Development/Women and Girls   Page 27
SIGAR Audit-10-13 Development/Women and Girls   Page 28
SIGAR Audit-10-13 Development/Women and Girls   Page 29
SIGAR Audit-10-13 Development/Women and Girls   Page 30
SIGAR Audit-10-13 Development/Women and Girls   Page 31
SIGAR Audit-10-13 Development/Women and Girls   Page 32
SIGAR Audit-10-13 Development/Women and Girls   Page 33
APPENDIX VI: COMMENTS FROM DEPARTMENT OF STATE AND U.S. AGENCY FOR
INTERNATIONAL DEVELOPMENT




SIGAR Audit-10-13 Development/Women and Girls                        Page 34
See SIGAR
Comment 1.




    SIGAR Audit-10-13 Development/Women and Girls   Page 35
SIGAR Audit-10-13 Development/Women and Girls   Page 36
See SIGAR
Comment 2.




    SIGAR Audit-10-13 Development/Women and Girls   Page 37
SIGAR Audit-10-13 Development/Women and Girls   Page 38
See SIGAR
Comment 3.




    SIGAR Audit-10-13 Development/Women and Girls   Page 39
SIGAR Audit-10-13 Development/Women and Girls   Page 40
See SIGAR
Comment 4.




   SIGAR Audit-10-13 Development/Women and Girls   Page 41
See SIGAR
Comment 5.




    SIGAR Audit-10-13 Development/Women and Girls   Page 42
SIGAR Audit-10-13 Development/Women and Girls   Page 43
SIGAR Audit-10-13 Development/Women and Girls   Page 44
See SIGAR
Comment 6.




   SIGAR Audit-10-13 Development/Women and Girls   Page 45
SIGAR Audit-10-13 Development/Women and Girls   Page 46
SIGAR Audit-10-13 Development/Women and Girls   Page 47
The following are SIGAR’s comments on State and USAID’s joint response to a draft of this report:

   1. State and USAID noted that our report did not address the entire 7 years. We focused our
      analysis on legislation pertaining to Afghan women and girls from 2001 to 2010, as stated in our
      scope and methodology. We focused on the State Department’s October 2009 report, which
      was intended to cover activities from 2008 to 2009. Our analysis of the prior years’ earmarks
      and earmark attributions was limited due to a lack of information in the 2008 report, which
      covered 2001 to 2008.

   2. State and USAID commented that all activities are aligned with the goals stated in the NAPWA.
      However, the 2009 report to Congress did not demonstrate the alignment of activities with the
      goals. Further, State and USAID noted in its comments the actions they are undertaking to
      create a comprehensive strategy based on the NAPWA that will align with its goals and
      benchmarks.

   3. We have noted the additional AIHRC funding in this report.

   4. We have updated our information on the ASGP in this report.

   5. We have updated our report to reflect this new information.

   6. The 2009 report did not include this information but we agree that this type of information
      would be useful in identifying efforts that support the congressional directive.




SIGAR Audit-10-13 Development/Women and Girls                                                  Page 48
                (This report was conducted under the audit project code SIGAR-010A).




SIGAR Audit-10-13 Development/Women and Girls                                          Page 49
SIGAR’s Mission               The mission of the Special Inspector General for
                              Afghanistan Reconstruction is to enhance oversight of
                              programs for the reconstruction of Afghanistan by
                              conducting independent and objective audits, inspections,
                              and investigations on the use of taxpayer dollars and
                              related funds. SIGAR works to provide accurate and
                              balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies,
                              and other decision-makers to make informed oversight,
                              policy, and funding decisions to:
                                 •   improve effectiveness of the overall reconstruction
                                     strategy and its component programs;
                                 •   improve management and accountability over funds
                                     administered by U.S. and Afghan agencies and their
                                     contractors;
                                 •   improve contracting and contract management
                                     processes;
                                 •   prevent fraud, waste, and abuse; and
                                 •   advance U.S. interests in reconstructing
                                     Afghanistan.

Obtaining Copies of SIGAR     To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies       SIGAR’s Web site (www.sigar.mil). SIGAR posts all
                              released reports, testimonies, and correspondence on its
                              Web site.

To Report Fraud, Waste, and   To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan          allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs       reprisal contact SIGAR’s hotline:
                                 •   Web: www.sigar.mil/fraud
                                 •   Email: hotline@sigar.mil
                                 •   Phone Afghanistan: +93 (0) 700-10-7300
                                 •   Phone DSN Afghanistan 318-237-2575
                                 •   Phone International: +1-866-329-8893
                                 •   Phone DSN International: 312-664-0378
                                 •   U.S. fax: +1-703-604-0983

Public Affairs                Public Affairs Officer
                                 •   Phone: 703-602-8742
                                 •   Email: PublicAffairs@sigar.mil
                                 •   Mail: SIGAR Public Affairs
                                     400 Army Navy Drive
                                     Arlington, VA 22202
